U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

May 14, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Nathan Duckworth v. United States of America,
S.Ct.No. 19-1222

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 13,
2020, and placed on the docket on April 16, 2020. The government's response is due on May
18, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 21, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19- 1222
DUCKWORTH, NATHAN
USA

JEFFREY T. GREEN
SIDLEY AUSTIN LLP
1501 K STREET, N.W.
WASHINGTON, DC 20005
202-736-8291
JGREEN@SIDLEY.COM

